Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     AUDITS OF MEDICARE
   PRESCRIPTION DRUG PLAN
          SPONSORS




                    Daniel R. Levinson
                     Inspector General

                      December 2011
                     OEI-03-09-00330
E   X
       EE CX UE TC I U V T E I VS EU M S M U A MR MY A R Y


                      OBJECTIVES
                      To determine:
                      (1) the extent to which stand-alone Medicare prescription drug plan
                          (PDP) sponsor contracts were audited between 2006 and 2009,
                      (2) the extent to which these audits identified problems, and
                      (3) whether the Centers for Medicare & Medicaid Services (CMS) had
                          evidence to show that corrective actions were taken to resolve these
                          problems.


                      BACKGROUND
                      CMS contracts with private companies, known as plan sponsors, to offer
                      Part D coverage to beneficiaries. One of CMS’s oversight activities is to
                      audit plan sponsors to ensure that they comply with Part D laws and
                      regulations. CMS staff identified seven types of audits, other than
                      financial audits, that CMS used for auditing stand-alone PDP contracts
                      in the first 4 years of the Part D program (2006 through 2009):
                      autoenrollment readiness audits, benefit integrity audits, bid audits,
                      compliance plan audits, long-term-care pharmacy contract audits,
                      pharmacy access audits, and program audits. CMS selects auditees
                      based on risk analysis and other factors. It is not required by law to
                      conduct any of these audits.
                      In this report, we provide a broad overview of CMS’s use of the seven
                      types of audits from 2006 through 2009. The Office of Inspector General
                      (OIG) is conducting a separate review of CMS’s use of financial audits.
                      A stand-alone PDP is a Part D insurance plan that covers only
                      prescription drugs. We focused on stand-alone PDPs because the
                      majority of the 27 million beneficiaries who enrolled in Part D in 2009
                      were in stand-alone PDPs. In this report, PDPs refer to stand-alone
                      PDPs.
                      We requested that CMS provide us with a list of all PDP audits it
                      completed for the seven audit types during the first 4 years of the
                      Part D program. We also collected information from CMS on the audits
                      that found problems. We then selected a sample from the audits that
                      identified problems for a more detailed review.




    OEI-03-09-00330   AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                i
E   X   E C     U T   I    V   E           S   U M     M   A   R Y



                          FINDINGS
                          Some PDP sponsor contracts were never audited between 2006 and
                          2009. CMS had 125 active, unique PDP sponsor contracts during the
                          first 4 years of the Part D program. Fifty of these contracts, which
                          covered 1.1 million beneficiaries, were never audited in any way. PDP
                          contracts were active between 1 and 4 years. Of the 68 contracts that
                          were active for all 4 years, 13 (19 percent) were never audited. CMS
                          had no parameters regarding the number of audits it should conduct
                          and did not complete any compliance plan audits during the 4-year
                          period.
                          Seventy-nine percent of the 245 PDP audits completed between
                          2006 and 2009 identified problems. Two-thirds of the 673 problems
                          reviewed involved beneficiaries’ coverage status or payment issues. For
                          example, 41 percent of problems identified through program audits
                          involved plan sponsors’ enrollment and disenrollment processes.
                          Forty-two percent of the problems identified through bid audits involved
                          issues such as adjustments to cost-sharing amounts and the
                          categorization of direct and indirect costs that might affect beneficiaries’
                          Part D premiums.
                          CMS did not have evidence to show that all corrective actions were
                          implemented for two audit types. CMS did not document that
                          corrective action was taken for 88 of 506 problems (17 percent)
                          identified by program audits and autoenrollment readiness audits.
                          Most of these problems were identified through program audits.


                          RECOMMENDATIONS
                          CMS is responsible for overseeing the Part D program. Auditing is one
                          way CMS ensures that plan sponsors comply with laws and regulations
                          related to the Part D program. Although CMS is not required to
                          conduct the seven types of audits in our report, it developed them to
                          identify problems and correct deficiencies within the Part D program.
                          However, CMS did not have parameters regarding the number of audits
                          it should conduct. In addition, CMS did not always have evidence to
                          show that all problems were addressed for certain audit types.
                          Prior OIG reports have shown that CMS delayed beginning some types
                          of audits. This report shows that some PDP contracts were never
                          audited, and that CMS completed no compliance plan audits between
                          2006 and 2009. This report also shows that when audits were


    OEI-03-09-00330       AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                  ii
E   X   E C     U T   I    V   E           S   U M     M   A   R Y


                          conducted, they frequently identified problems that may directly affect
                          beneficiaries’ coverage status or payments. Audits can potentially
                          identify problems that might not be detected through other forms of
                          oversight.
                          We recommend that CMS:
                          Establish a comprehensive Part D auditing strategy that ensures that each
                          plan sponsor will be audited in some way within a certain timeframe.

                          Ensure that evidence is available to show that corrective actions have been
                          implemented.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS partially concurred with the first recommendation, stating that it
                          believes all sponsors should undergo a bid audit and that it plans to
                          complete a bid audit by 2013 of every PDP parent organization in the
                          program since 2006. CMS is not in favor of establishing a comprehensive
                          Part D auditing strategy. It believes a comprehensive oversight strategy,
                          developed in coordination with offices responsible for the management of
                          Part D, is more effective than an auditing strategy. CMS also believes
                          that its heavy reliance on monitoring, defined as systematic evaluation of
                          the complete universe of sponsors, allows it to assess key performance
                          indicators across 100 percent of PDP sponsors. CMS stated that
                          monitoring is the only efficient approach for assessing critical
                          performance areas across all PDP contracts.

                          OIG stands by its first recommendation, to establish a comprehensive
                          Part D auditing strategy. This recommendation is not meant to be a
                          substitute for a comprehensive oversight strategy or a substitute for
                          monitoring.

                          CMS concurred with the second recommendation. CMS stated that in
                          2010, it began a more comprehensive process for validating corrections
                          made by sponsors as a result of deficiencies found during audits. CMS
                          stated that it now maintains, and will continue to maintain,
                          documentation of corrective actions implemented for all audits.




    OEI-03-09-00330       AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                  iii
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Some PDP sponsor contracts were never audited between
                    2006 and 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Seventy-nine percent of the 245 PDP audits completed
                    between 2006 and 2009 identified problems. . . . . . . . . . . . . . . . . . 13

                    CMS did not have evidence to show that all corrective
                    actions were implemented for two audit types . . . . . . . . . . . . . . . . 16



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    Agency Comments and Office of Inspector General Response. . . . 17



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    A: Categories of Problems Identified Through Sampled
                       Audits, 2006–2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    B: Categories of Corrective Actions Taken To Address
                       Problems Identified Through Sampled Audits, 2006–2009 . . . 21

                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
   I N T R O D U C T I O N


                  OBJECTIVES
                  To determine:
                  (1) the extent to which stand-alone Medicare prescription drug plan
                      (PDP) sponsor contracts were audited between 2006 and 2009,
                  (2) the extent to which these audits identified problems, and
                  (3) whether the Centers for Medicare & Medicaid Services (CMS) had
                      evidence to show that corrective actions were taken to resolve these
                      problems.


                  BACKGROUND
                  This report adds to the Office of Inspector General’s (OIG) body of work
                  regarding CMS’s oversight of the Medicare Part D program, also known
                  as the Voluntary Prescription Drug Benefit Program, which went into
                  effect on January 1, 2006. 1 One of CMS’s oversight activities is to audit
                  plan sponsors to ensure that they comply with laws and regulations
                  related to the Part D program. Plan sponsors are private companies
                  under contract with CMS to provide Part D coverage to beneficiaries.
                  OIG’s previous work has found that CMS delayed beginning various
                  types of Part D audits. Audits can identify problems that might not be
                  detected through other forms of oversight. This report examines the
                  extent to which CMS has completed audits and identified problems in
                  the first 4 years of the Part D program.
                  This report provides a broad overview of seven types of audits—
                  excluding financial audits—that CMS planned to use to audit plan
                  sponsors of stand-alone PDPs between 2006 and 2009. We did not
                  include financial audits in this report because OIG reviewed these
                  audits separately.
                  Two types of plans provide Part D coverage. Medicare Advantage
                  prescription drug plans cover a variety of medical services, including
                  prescription drugs, while stand-alone PDPs cover only prescription
                  drugs. We focused on stand-alone PDPs because the majority of
                  beneficiaries in the Part D program were enrolled in stand-alone PDPs.
                  In 2009, 17 million of the 27 million beneficiaries enrolled in Part D




                    1 Social Security Act § 1860D-1, 42 U.S.C. § 1395w-101.




OEI-03-09-00330   AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                 1
I   N T    R O        D   U     C T         I   O   N


                              were in stand-alone PDPs. 2 In this report, PDPs refer to stand-alone
                              PDPs.
                              PDP Contracts
                              A plan sponsor’s PDP contract with CMS may include more than one
                              plan. As of February 2011, plan sponsors had 84 PDP contracts that
                              included a total of 1,304 plans. 3 Plans within a contract may differ in
                              coverage and copayments.
                              Part D Expenditures
                              In 2009, total expenditures for Part D were $60.8 billion. 4 CMS makes
                              monthly prospective payments to plan sponsors to provide drug
                              coverage to Medicare beneficiaries. These payments are based on bid
                              amounts approved by CMS. Bid amounts are cost estimates that plan
                              sponsors provide to CMS prior to the beginning of each plan year. After
                              the close of the plan year, CMS reconciles these payments with the plan
                              sponsors’ actual costs to determine whether plan sponsors owe money to
                              Medicare or Medicare owes money to them.
                              CMS Offices That Conduct Part D Audits
                              Several CMS offices audit plan sponsors with PDP contracts. Some
                              offices have overlapping responsibilities for the same type of audit.
                              The following CMS offices were responsible for the audits in this report
                              during the period we reviewed:
                                  •         the Office of the Actuary (OACT),
                                  •         the Program Compliance and Oversight Group (PCOG),
                                  •         the Program Integrity Group, and
                                  •         the Medicare Drug Benefit and C & D Data Group (MDBG).
                              Offices may conduct offsite or onsite Part D audits. The teams that
                              conduct the audits may include CMS central office staff, CMS regional
                              office staff, or CMS contractors, including the Medicare Drug Integrity




                                2 CMS, Monthly Contract and Enrollment Summary Report, June 2009. Accessed at
                              http://www.cms.gov/MCRAdvPartDEnrolData/ on July 14, 2009.
                                 3 CMS, Monthly Enrollment by Contract, Monthly Enrollment by Plan, February 2011.

                              Accessed at http://www.cms.gov/MCRAdvPartDEnrolData/ on July 12, 2011.
                                4 The Boards of Trustees of the Federal Hospital Insurance and Federal Supplementary

                              Medical Insurance Trust Funds, 2010 Annual Report, August 5, 2010, p. 135. Accessed at
                              http://www.cms.gov/ReportsTrustFunds/downloads/tr2010.pdf on February 22, 2011.



    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                   2
I   N T    R O        D   U     C T         I   O   N


                              Contractors (MEDIC). MEDICs perform specific program integrity
                              activities in the Part D program. 5
                              Seven Types of Audits
                              In addition to financial audits, CMS began conducting seven types of
                              audits between 2006 and 2009. Although CMS is required by law to
                              conduct financial audits, there are no legal requirements for it to
                              conduct any of these seven types of audits. 6 CMS conducts these audits
                              at the plan sponsor’s parent organization, contract, or plan level,
                              depending on the audit type. Each CMS office that conducts Part D
                              audits selects plan sponsors to audit based on certain criteria, including
                              enrollment levels, recommendations from other CMS offices, risk
                              analysis, and resource limitations.
                              Autoenrollment readiness audits. MDBG and PCOG were the CMS
                              offices responsible for this type of audit. Autoenrollment readiness
                              audits assess a plan sponsor’s automated systems and processes to
                              ensure that the plan is ready to receive autoenrollments of beneficiaries
                              who qualify for low-income subsidies. When beneficiaries qualify for
                              such subsidies but fail to enroll in Part D plans, CMS automatically
                              enrolls them in a PDP. Each year, CMS identifies PDPs qualified to
                              accept autoenrollees and selects plan sponsors from this group to audit.
                              The audit measures the plan sponsors’ readiness to autoenroll
                              beneficiaries in the coming contract year and to provide timely notices
                              and evidence of enrollment to beneficiaries so they can immediately use
                              the plan services.
                              Benefit integrity audits. These audits are conducted on an ad hoc basis to
                              identify and investigate Part D fraud cases. At the time of our review,
                              the CMS office with oversight responsibility for these audits was the
                              Program Integrity Group, then operating within the Office of Financial
                              Management.
                              Benefit integrity audits may be performed on any entity in the Part D
                              program. CMS, a MEDIC, or a plan sponsor can recommend and
                              conduct a benefit integrity audit. With CMS’s approval, MEDICs may
                              participate in plan sponsors’ audits of pharmacies.




                                 5 CMS, Prescription Drug Benefit Manual, Rev. 2, April 25, 2006, ch. 9, § 10.1. Accessed at

                              http://www.cms.gov/PrescriptionDrugCovContra/12_PartDManuals.asp on September 22, 2011.
                                6 Social Security Act § 1860D-12, 42 U.S.C. § 1395w-112.




    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                           3
I   N T    R O        D   U     C T         I   O   N


                              Bid audits. OACT is the CMS office responsible for reviewing,
                              approving, and auditing bid amounts. Before it approves a sponsor’s
                              bid, CMS conducts a review to ensure that the bid meets CMS’s
                              requirements.
                              Once a bid is approved, CMS may conduct a bid audit, i.e., an audit of
                              the plan sponsor’s bid development for selected plans offered by the
                              sponsor. The bid development includes the bid amount, which is the
                              plan sponsor’s per-member, per-month estimated cost of providing drug
                              coverage. Bid audits are reviews of the reasonableness of the data and
                              the support for actuarial assumptions used to develop the plan sponsor’s
                              bid. Bid audits review base period data, which are a previous year’s
                              actual utilization, drug cost, and administrative fee data that help
                              determine the bid amount.
                              CMS categorizes deficiencies found through bid audits as findings or
                              observations. Findings are deficiencies that, if corrected, could lead to
                              reduced payments from CMS, additional benefits to enrollees, or
                              reduced enrollee premiums. Observations are inconsistencies, errors,
                              omissions, and unreasonable assumptions and practices that do not
                              significantly affect the bid. 7
                              CMS reviews plan sponsors’ subsequent bids to determine whether
                              issues identified by previous bid audits were addressed. Findings and
                              observations identified through bid audits are forwarded to MDBG to be
                              used in performance analysis of those plan sponsors.
                              Compliance plan audits. Late in 2009, the responsibility for compliance
                              plan audits was transitioned to PCOG. Prior to that time, the Program
                              Integrity Group was responsible for these audits. All sponsors are
                              required to have a compliance plan. Compliance plans detail sponsors’
                              policies and procedures regarding fraud, waste, and abuse. The
                              compliance plan must include certain elements such as “procedures for
                              effective internal monitoring and auditing” and “procedures for ensuring
                              prompt responses to detected offenses.” 8 Compliance plan audits
                              determine whether sponsors have these elements in their plans and the
                              extent to which their compliance plans are effective.
                              Long-term-care pharmacy contract audits. MDBG was responsible for
                              this type of audit at the time of our review. Long-term-care pharmacies

                                7 CMS, Audit Procedures for Calendar Year 2008 Bids, p. 3.
                                8 42 CFR § 423.504(b)(4)(vi).




    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                  4
I   N T    R O        D   U     C T         I   O   N


                              dispense prescription drugs to beneficiaries in institutional settings
                              such as nursing homes. Long-term-care pharmacy contract audits were
                              performed on plan sponsors with the largest number of beneficiaries in
                              long-term institutional settings. These audits reviewed agreements
                              between the plan sponsors and long-term-care pharmacies to ensure
                              that they met CMS requirements, such as convenient access to
                              long-term-care pharmacies for institutionalized enrollees. CMS
                              conducted these audits in response to complaints about long-term-care
                              pharmacy negotiations.
                              Pharmacy access audits. Pharmacy access audits were another type of
                              audit for which MDBG was responsible. These were audits of contracts
                              between plan sponsors and pharmacies and pharmacy benefit managers
                              that administer sponsors’ prescription drug benefits. The audits
                              determined whether the contracts met CMS requirements. These
                              requirements include, but are not limited to, meeting retail pharmacy
                              access standards, abiding by privacy regulations, and charging the
                              correct cost-sharing amount. CMS did not conduct pharmacy access
                              audits after 2007 because it began requiring PDPs to submit analyses of
                              Part D pharmacy access to CMS each year.
                              Program audits. Also known as program compliance audits, program
                              audits examine a broad array of policies, procedures, and operations
                              related to sponsors’ Part D plans.9 These audits are conducted by
                              PCOG and examine areas such as enrollment and disenrollment;
                              marketing; coordination of benefits; formularies; and enrollee coverage
                              determinations, grievances, and appeals.
                              Corrective Action Plans
                              CMS requires plan sponsors to develop and implement corrective action
                              plans to address problems identified through most types of audits.
                              Within certain types of audits and for certain types of problems, CMS
                              takes corrective actions, such as warning or monitoring the sponsor.
                              For bid audits, CMS does not use a corrective action plan process.
                              Instead, CMS determines whether the problems identified through bid
                              audits are resolved when it reviews plan sponsors’ bids for the following
                              contract year.




                                 9 We use the term program audit instead of program compliance audit throughout this report

                              to distinguish program audits from compliance plan audits.



    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                          5
I   N T    R O        D   U     C T         I   O   N


                              Problems identified through benefit integrity audits conducted by plan
                              sponsors are addressed through a corrective action process that is
                              controlled by the sponsor.
                              During our review, CMS described the corrective action plan process as
                              an iterative one that begins when the plan sponsor submits an initial
                              corrective action plan. After it reviews the corrective action plan, CMS
                              can require the plan sponsor to modify it and resubmit it until CMS is
                              satisfied that the corrective action plan addresses the audit findings and
                              approves it.
                              Monitoring
                              According to CMS, audits are just one part of its strategy to ensure that
                              PDP sponsors are in compliance with Part D laws, regulations, and
                              guidance. CMS reported that although its initial approach was to use
                              auditing to ensure compliance, it was faced with a number of urgent
                              issues surrounding Part D that drove the creation of a more intensive
                              monitoring program. CMS stated that as day-to-day monitoring has
                              become more sophisticated, particularly in the past few years, it has not
                              had to rely as heavily on audits as a source of information about PDP
                              sponsor performance. The new monitoring program includes the
                              collection of measurements from all plans on key issues, e.g., beneficiary
                              complaints, call center response times, disenrollment rates, and Part D
                              pricing accuracy. CMS reported that monitoring provides more timely
                              information than audits and also results in compliance actions.
                              Related OIG Work
                              OIG has issued several reports concerning CMS’s oversight of the
                              Part D program that have included information about audits.
                              Three reports found delays in starting financial audits. 10 Two of these
                              reports, issued in 2007, found that financial audits had not yet begun.
                              The third report found that only 4 percent of the required number of
                              financial audits for contract year 2006 had begun as of April 2008.




                                10 OIG, CMS’s Implementation of Safeguards During Fiscal Year 2006 To Prevent and Detect

                              Fraud and Abuse in Medicare Prescription Drug Plans, OEI-06-06-00280, October 2007; OIG,
                              Tracking Beneficiaries’ True Out-of-Pocket Costs for the Part D Prescription Drug Benefit,
                              OEI-03-06-00360, December 2007; and OIG, Centers for Medicare & Medicaid Services Audits of
                              Medicare Part D Bids, OEI-05-07-00560, November 2008.



    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                        6
I   N T    R O        D   U     C T         I   O   N


                              Two reports, issued in 2008 and 2010, found weaknesses in the bid
                              audit process.11 In 2008, OIG found that one-quarter of all bid audits
                              for 2006 and 2007 identified at least one finding. However, bid audits
                              were not designed to lead to sanctions, such as civil monetary penalties
                              or suspension of enrollment. OIG recommended that CMS modify the
                              bid audit process so that plan sponsors can be held more accountable
                              and subject to corrective actions when bid audits identify findings. CMS
                              responded that it would carefully consider modifying the bid audit
                              process to hold plans more accountable for findings. In 2010, OIG found
                              that the bid review and audit process needed improvements, including
                              consideration of bid audit findings in the year-end reconciliation
                              process.
                              Three other OIG reports contained information regarding plan sponsors’
                              compliance plans. 12 These reports found delays in starting compliance
                              plan audits and that CMS did not have information on Part D fraud and
                              abuse that would help it determine the effectiveness of sponsors’
                              compliance plans. OIG also found that although MEDICs were
                              prepared to conduct compliance plan audits, CMS did not give MEDICs
                              approval to do so in fiscal year 2008.
                              In its comments on several of these reports, CMS cited budget shortfalls
                              and lack of necessary data as reasons that audits had not begun.


                              METHODOLOGY
                              Data Collection and Analysis
                              For this review, we included all PDP audit types identified by various
                              CMS offices, with the exception of financial audits. We collected all audit
                              information from CMS’s central office, whether the audits were conducted
                              by the central office, CMS regional offices, or contractors. We collected
                              information in two phases. Data collection for this study began in
                              December 2009. However, after receiving responses for both phases of
                              data collection from CMS, we had to request clarifying information. For


                                11 OIG, Centers for Medicare & Medicaid Services Audits of Medicare Part D Bids,
                              OEI-05-07-00560, November 2008; OIG, Medicare Part D – Prescription Drug Event
                              Reconciliation Process, A-18-08-30102, June 2010.
                                12 OIG, Oversight of Prescription Drug Plan Sponsors’ Compliance Plans, OEI-03-08-00230,

                              October 2008; OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse,
                              OEI-03-07-00380, October 2008; OIG, Medicare Drug Integrity Contractors’ Identification of
                              Potential Part D Fraud and Abuse, OEI-03-08-00420, October 2009.




    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                         7
I   N T    R O        D   U     C T         I    O   N


                              some audit types, we made repeated requests for clarification. We
                              completed data collection in August 2010.
                              First phase. In the first phase of data collection and analysis, we collected
                              the following information on plan sponsors for each of 4 years, 2006
                              through 2009:
                                       •        CMS’s audit protocols;
                                       •        CMS’s criteria for selecting PDPs to be audited;
                                       •        a list of PDP contracts; and
                                       •        a list of the PDPs for which audits were completed for each of the
                                                seven audit types in this study, the date each audit was
                                                completed (i.e., final report issued), and whether these audits
                                                identified problems. We defined “problem” as any audit finding
                                                that CMS determined needed to be addressed by plan sponsors.
                              We reviewed the audit protocols and the criteria CMS used for selecting
                              PDPs to audit for each of the audit types.
                              From the lists of PDP contracts and completed audits, we summarized the
                              number of contracts CMS had with plan sponsors each year, and
                              calculated the percentage of contracts for which CMS completed each of
                              the seven types of audits. If a parent organization was audited, we
                              deemed that all contracts under that parent organization were audited.
                              We also summarized the number of audit types completed each year and
                              across all 4 years. Finally, we calculated the number and percentage of
                              audits that identified problems.
                              Data stratification and sample selection. From the population of 194 audits
                              that identified problems, we selected a stratified random sample of
                              129 to review in more detail. Each stratum of the sample represents an
                              audit type. For each audit type, if there were 35 or fewer audits that
                              identified problems in 4 years, we reviewed all of the audits. As a result,
                              we reviewed the entire population of autoenrollment readiness audits,
                              benefit integrity audits, long-term-care pharmacy contract audits, and
                              pharmacy access audits that identified problems. Bid audits and program
                              audits were the only two audit types for which we did not review the entire
                              population.
                              Table 1 shows the population of audits that identified problems, the
                              number of sample audits from this population, and the number of
                              problems in sample audits.



    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                         8
I   N T    R O        D   U     C T          I    O   N



                              Table 1: Sample Audits and Problems in Sample Audits,
                              2006–2009
                                                                                                      Population                    Number
                                                                                                       of Audits                          of
                                                                                                                      Sample
                                Stratum                                      Type of Audit                  That                   Problems
                                                                                                                       Audits
                                                                                                       Identified                 in Sample
                                                                                                       Problems                       Audits

                                    1                      Autoenrollment readiness audits                    19          19               51
                                    2                                Benefit integrity audits                 27          27               38
                                    3                                             Bid audits                  72          37            107
                                                                                                                  1           1
                                    4                              Compliance plan audits                    NA          NA             NA1
                                    5              Long-term-care pharmacy contract audits                     9           9               9
                                    6                             Pharmacy access audits                       2           2               2
                                    7                                       Program audits                    65          35            466

                                   Total                                                                    194          129            673
                              Source: OIG analysis of CMS responses to 2010 OIG data request.
                              1
                                Compliance plan audits were not completed during our review period.



                              Second phase. In the second phase of data collection and analysis, we
                              collected the following information for all problems identified though our
                              sample audits:
                                       •         a description of each problem and each corrective action used to
                                                 address it,
                                       •         the date that CMS accepted the corrective action plan to address
                                                 each problem and the date the problem was resolved, and
                                       •         a description of the evidence CMS used to determine that the
                                                 problem was resolved.
                              We also collected CMS’s policies and procedures for implementing
                              corrective actions.
                              We calculated the number of problems identified by each type of audit and
                              across audit types. We categorized the types of problems and corrective
                              actions and determined the frequency of each category by audit type.
                              For each type of audit, we determined whether CMS had evidence that
                              corrective actions were taken to address the problems. If CMS’s
                              description of evidence lacked specifics or did not correspond specifically to
                              the corrective action, we determined that there was no evidence that the
                              corrective action was taken.
                              We did not project findings from our sample because we could not make
                              reliable projections for bid and program audit problem types. Therefore, to


    OEI-03-09-00330           AUDITS    OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                                  9
I   N T    R O        D   U     C T         I   O   N


                              present all the findings in a consistent manner, we provide information
                              based only on our review of the sample data.
                              Limitations
                              We did not independently verify data provided by CMS. We also did not
                              evaluate whether the audit types described by CMS met general
                              accounting or auditing standards.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-03-09-00330           AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS              10
   F I N D I N G S

                                                          CMS had 125 active, unique PDP
                  Some PDP sponsor contracts
                                                          sponsor contracts over the first
                   were never audited between
                                                          4 years of the Part D program. As
                                2006 and 2009             shown in Table 2, 50 of the
                                                          125 contracts were never audited
                   in any way. These 50 contracts covered 1.1 million beneficiaries.13 PDP
                   contracts were active between 1 and 4 years. Of the 68 contracts that
                   were active for 4 years, 13 (19 percent) were never audited. Table 2
                   shows the number and percentage of contracts never audited.


                   Table 2: Number of Contracts That Were Never Audited,
                   2006–2009

                     Number of                                                   Number of      Percentage of
                                                          Number of
                     Years Contracts                                        Contracts Never   Contracts Never
                                                          Contracts
                     Were Active                                                    Audited           Audited

                     4                                              68                  13                  19%

                     3                                              28                  13                  46%

                     2                                                5                  1                  20%

                     1                                              24                  23                  96%

                         Total                                     125                  50                  40%
                   Source: OIG analysis of CMS responses to 2010 data request.



                   CMS did not set parameters regarding the number of audits to conduct
                   Whether a plan sponsor is audited depends on selection criteria developed
                   by the different CMS offices responsible for conducting the audits. None of
                   these offices had requirements regarding the number of audits to conduct.
                   As shown in Table 3, in some years, CMS did not complete any audits for
                   certain audit types. Audits can identify problems that might not be
                   detected through other forms of oversight.
                   Autoenrollment readiness audits. CMS completed autoenrollment readiness
                   audits in all 4 years. Thirty-four autoenrollment readiness audits were
                   completed between 2006 and 2009.




                     13 The enrollment estimate for these 50 contracts is based on the number of enrollees in
                   December of the most recent year each contract was active between 2006 and 2009. As of
                   February 2011, 19 million beneficiaries were enrolled in PDPs.



OEI-03-09-00330    AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                   11
F   I   N   D I       N G        S



                            Table 3: Types of Audits Completed Each Year, 2006–2009
                                                                                                                             Total for All
                                Type of Audit                                  2006         2007        2008       2009
                                                                                                                                  4 Years

                                Autoenrollment readiness audits                  7           11            8        8               34

                                Benefit integrity audits1                        0            1           17        18              36

                                Bid audits                                      41           24           14       NA2              79

                                Compliance plan audits3                          0            0            0        0               0

                                Long-term-care pharmacy contract                NA4          NA4         NA4        10              10
                                audits

                                Pharmacy access audits                           0            9          NA5       NA5              9

                                Program audits                                   0           21           31        25              77

                                     Total                                      48           66           70        61             245

                            Source: OIG analysis of CMS responses to 2010 data request.
                            1
                              Benefit integrity audits were conducted by sponsors. They were audits of pharmacies in sponsors’ networks.
                            2
                              Fourteen bid audits begun in 2009 were not completed in 2009.
                            3
                              Although CMS did not complete any compliance plan audits between 2006 and 2009, it did begin a number of these
                            audits in 2010.
                            4
                                CMS did not begin conducting long-term-care pharmacy contract audits until 2009.
                            5
                                CMS discontinued pharmacy access audits after 2007.



                                Benefit integrity audits. Plan sponsors completed benefit integrity audits of
                                pharmacies in 3 of the 4 years we reviewed. The number of audits
                                completed varied from as few as 1 in 2007 to as many as 18 in 2009.
                                Bid audits. The number of bid audits CMS completed each year ranged
                                from 41 for contract year 2006 to 14 for contract year 2008. Because bid
                                audits are always begun in October of the contract year and completed in
                                April of the following year, the bid audits that were begun in 2009 were
                                not completed in 2009.
                                Compliance plan audits. CMS did not complete any compliance plan audits
                                in the first 4 years of the Part D program. CMS began 10 compliance plan
                                audits in 2008 and another 7 in 2009. Sponsors were selected for
                                compliance plan audits based on performance data, risk factors, and
                                enrollment levels. Although the selected sponsors presented the greatest
                                risk, the compliance plan audits begun in 2008 and 2009 were never
                                completed. CMS began conducting compliance plan audits in 2010 and
                                completed a number of these audits.



    OEI-03-09-00330             AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                              12
F   I   N   D I       N G    S


                            Long-term-care pharmacy contract audits. CMS did not conduct this type of
                            audit in the first 3 years of the Part D program. It began conducting
                            long-term-care pharmacy contract audits only after receiving complaints
                            from plan sponsors about negotiations with long-term-care pharmacies.
                            CMS selected plan sponsors with the largest number of enrollees living in
                            long-term-care settings for these audits. Ten audits of this type were
                            completed in 2009. CMS reported that after 2009, it did not conduct these
                            audits because it did not receive similar complaints in subsequent years.
                            Pharmacy access audits. In the first year of the Part D program, no
                            pharmacy access audits were conducted because all plan sponsors’
                            pharmacy access networks were reviewed as part of the Part D application
                            process. CMS completed nine audits of this type in 2007. For these
                            audits, CMS selected 10 percent of plan sponsors that made changes
                            between 2006 and 2007 regarding the first-tier entity (e.g., a pharmacy
                            benefit manager) performing key functions on their behalf. After 2007, no
                            pharmacy access audits were conducted because CMS began requiring
                            plan sponsors to submit an analysis of Part D access under new annual
                            reporting requirements.
                            Program audits. CMS did not conduct program audits in the first year of
                            the Part D program. It completed 21, 31, and 25 program audits in 2007,
                            2008, and 2009, respectively.


        Seventy-nine percent of the 245 PDP audits                 For six of the seven audit types
                completed between 2006 and 2009                    in our review, 245 audits were
                                                                   completed between 2006 and
                               identified problems
                                                                   2009. Of those, 194 (79 percent)
                            identified problems. For four audit types, at least three-quarters of the
                            audits identified problems.
                            Table 4 shows, by audit type, the total number of audits completed and
                            the number and percentage of audits that identified problems.




    OEI-03-09-00330         AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS               13
F   I   N   D I       N G    S


                             Table 4: Percentage of Audits That Identified Problems,
                             2006–2009
                                                                                                 Number of        Percentage
                                                                               Number of             Audits         of Audits
                                 Audit Type                                       Audits               That             That
                                                                               Completed          Identified       Identified
                                                                                                  Problems         Problems

                                 Bid audits                                                 79           72               91%

                                 Long-term-care pharmacy contract audits                    10            9               90%

                                 Program audits                                             77           65               84%

                                 Benefit integrity audits                                   36           27               75%

                                 Autoenrollment readiness audits                            34           19               56%

                                 Pharmacy access audits                                      9            2               22%

                                 Compliance plan audits                                      0           NA                NA

                                    Total                                                  245          194               79%
                             Source: OIG analysis of CMS responses to 2010 OIG data request.




                            Two-thirds of the problems identified involved beneficiaries’ coverage
                            status or payments
                            Between 2006 and 2009, the 129 audits reviewed identified
                            673 problems. As shown in Table 5, two-thirds of these problems (447 of
                            673) may directly affect beneficiaries’ coverage status or payments.

                             Table 5: Total Number of Problems by Audit Type, 2006–2009
                                                                                                        Number of Problems
                                                                                           Number of
                                 Audit Type                                                                That May Directly
                                                                                            Problems
                                                                                                         Affect Beneficiaries


                                 Program audits                                                  466                          358

                                 Bid audits                                                      107                             45

                                 Autoenrollment readiness audits                                  51                             23

                                 Benefit integrity audits                                         38                             21

                                 Long-term-care pharmacy contract audits                           9                             0

                                 Pharmacy access audits                                            2                             0

                                 Compliance plan audits                        No audits completed             No audits completed

                                     Total                                                       673                          447
                             Source: OIG analysis of CMS responses to 2010 data request.




    OEI-03-09-00330         AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                          14
F   I   N   D I       N G    S


                            Appendix A lists all categories of problems identified through the audits
                            and the number of problems in each category.
                            Program audits. Forty-one percent of the problems identified through
                            program audits were deficiencies in the plan sponsors’ enrollment and
                            disenrollment processes. Examples of these deficiencies include failure
                            to provide beneficiaries with membership materials prior to the effective
                            date of enrollment, failure to notify beneficiaries of denial of enrollment
                            requests, and failure to disenroll beneficiaries who move out of the
                            sponsor’s service area. Problems in these processes may affect
                            beneficiaries’ understanding of their coverage and, therefore, affect their
                            decisions about obtaining needed prescriptions.
                            Another 36 percent of the problems identified through program audits
                            were deficiencies in plan sponsors’ coverage determination, grievance,
                            and/or appeals processes. Examples of deficiencies of this type include
                            failure to notify a beneficiary of a coverage determination or decision
                            regarding a grievance within required timeframes. Problems in these
                            processes could affect beneficiaries’ ability to obtain the prescription
                            drugs they need.
                            Bid audits. Forty-two percent of problems identified through bid audits
                            involved adjustment, calculation, or categorization errors. These errors
                            included inappropriate adjustments to cost sharing amounts,
                            inappropriate calculation of indirect costs, and inappropriate
                            categorization of direct and indirect costs. Problems in plan sponsors’
                            bids can affect the premiums beneficiaries pay for Part D coverage and
                            the amount CMS pays plan sponsors to administer the Part D benefit.
                            As stated previously, CMS categorizes problems identified by bid audits
                            as either findings or observations, and findings are more serious than
                            observations. Of the 107 problems identified through bid audits,
                            13 were findings. Of the 13 findings, 5 involved adjustment, calculation,
                            or categorization errors.
                            Autoenrollment readiness audits. Two categories of problems represented
                            45 percent of problems identified through autoenrollment readiness
                            audits. The two problem categories were deficiencies in testing the
                            systems for processing enrollment transactions and deficiencies in
                            processes for handling four types of identifying information, called
                            4Rx data, needed to route prescription drug claims. If a plan sponsor is
                            unable to autoenroll low-income subsidy beneficiaries or route their
                            claims correctly, these beneficiaries could be left without Part D
                            coverage.

    OEI-03-09-00330         AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                15
F   I   N    D I      N G    S


                            Benefit integrity audits. Fifty-five percent of problems identified through
                            benefit integrity audits involved inappropriate billing by pharmacies,
                            such as pharmacies billing for services not rendered. When pharmacies
                            bill inappropriately, the Part D program and beneficiaries may be
                            harmed.


            CMS did not have evidence to show that all                CMS did not document that
                                                                      corrective action was taken for
                 corrective actions were implemented
                                                                      88 of 506 problems
                                   for two audit types
                                                                      (17 percent) identified by
                            program and autoenrollment readiness audits. 14 Eighty-six of these
                            eighty-eight problems (98 percent) were identified by program audits.
                            The categories of program audit problems for which there was no
                            evidence of correction varied and included deficiencies in enrollment
                            and disenrollment processes and deficiencies in coverage determination,
                            grievances, and appeals processes.
                            For two problems identified by autoenrollment readiness audits, CMS
                            did not have evidence to show that corrective actions were taken. The
                            corrective actions for these two problems were to submit policies and
                            procedures and take corrective action under a different audit type.15
                            Appendix B lists all the categories of corrective action used to address
                            problems identified through each type of audit.




                              14 For this calculation, we excluded 11 sample problems from the 517 problems identified
                            through these 2 audit types either because the problems were unresolved or the PDP contracts
                            were not renewed.
                              15 There was no evidence to show that corrective action was implemented under the

                            other audit, which was a program audit.



    OEI-03-09-00330         AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                         16
E   X   E C U T I V E
       R E C O M M E SN UD MA MT AI RO YN S

                      CMS is responsible for overseeing the Part D program. Auditing is one
                      way CMS ensures that plan sponsors comply with laws and regulations
                      related to the Part D program. Although CMS is not required to
                      conduct the seven types of audits in our report, it developed them to
                      identify problems and correct deficiencies within the Part D program.
                      However, CMS did not have requirements regarding the number of
                      audits it should conduct. Nor did CMS always have evidence to show
                      that all problems were addressed for certain audit types.
                      Prior OIG reports have shown that CMS delayed beginning some types
                      of audits. This report shows that some PDP contracts were never
                      audited, and that no compliance plan audits were completed between
                      2006 and 2009. This report also shows that when audits were
                      conducted, they frequently identified problems that may directly affect
                      beneficiaries’ coverage status or payments. Audits can identify
                      problems that might not be detected through other forms of oversight.
                      The sooner audits are performed and problems identified, the sooner
                      problems can be addressed.
                      We recommend that CMS:
                      Establish a comprehensive Part D auditing strategy that ensures that each
                      plan sponsor will be audited in some way within a certain timeframe
                      The strategy should include parameters for conducting each audit type.
                      The strategy should also ensure coordination among the CMS offices
                      responsible for auditing activities so that no contract goes 4 successive
                      years without an audit of some type.
                      Ensure that evidence is available to show that corrective actions have been
                      implemented
                      CMS should maintain documentation that corrective actions were
                      implemented.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS partially concurred with the first recommendation, stating that it
                      believes that all sponsors should undergo a bid audit and that it plans to
                      complete a bid audit by 2013 of every PDP parent organization in the
                      program since 2006. CMS is not in favor of establishing a comprehensive
                      Part D auditing strategy. It believes a comprehensive oversight strategy,
                      developed in coordination with offices responsible for the management of
                      Part D, is more effective than an auditing strategy. CMS also believes


    OEI-03-09-00330   AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                17
R   E C     O    M    M   E   N D         A T    I   O   N   S


                          that its heavy reliance on monitoring, defined as systematic evaluation of
                          the complete universe of sponsors, allows it to assess key performance
                          indicators across 100 percent of PDP sponsors. CMS stated that
                          monitoring is the only efficient approach for assessing critical
                          performance areas across all PDP contracts. CMS added that in 2011, it
                          systematically monitored PDP sponsors’ performance across more than a
                          dozen topic areas, e.g., call center wait times and complaint rates.
                          CMS also stated the 2010 program audits and compliance plan audits
                          were conducted on sponsors that posed the most risk to the program, and
                          that these sponsors were identified through risk assessments using
                          information gathered through monitoring efforts.
                          OIG stands by its first recommendation, to establish a comprehensive
                          Part D auditing strategy. This recommendation is not meant to be a
                          substitute for a comprehensive oversight strategy or for monitoring. It is
                          meant to be a tool CMS can use to ensure that parameters are
                          established and followed regarding the auditing of Part D plan sponsors,
                          regardless of the types of audits CMS chooses to conduct from year to
                          year.
                          CMS concurred with the second recommendation. CMS stated that in
                          2010, it began a more comprehensive process for validating corrections
                          made by sponsors as a result of deficiencies found during audits. CMS
                          stated that it now maintains, and will continue to maintain,
                          documentation of corrective actions implemented for all audits. For the
                          full text of CMS’s comments, see Appendix C.




    OEI-03-09-00330       AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                18
         A P P E N D I X                         ~      A



Table A-1: Categories of Problems Identified Through Sampled Audits, 2006–2009
                                                                                                                      Number of
Audit Type                                                                              Problem Category
                                                                                                                       Problems

Autoenrollment readiness audits                                                    Deficient systems testing                   12

                                                                Deficient system for handling the identifying
                                                                                                                               11
                                                                         information needed to route claims

                                                                            Deficient beneficiary call center                   5

                                                                      Deficient formulary transition process                    5

                                                        Technical concerns including inappropriate use of
                                                                                                                                4
                                                                   Transaction Reply Report weekly files1

                                                       Deficient system for correcting low-income subsidy
                                                            data with best available evidence of Medicaid                       4
                                                                                                 eligibility

                                                                           Deficient autoenrollment process                     3

                                                                      Deficient low-income subsidy process                      2

                                                                             Deficient point-of-sale process                    2
                                                                 Deficient process for providing beneficiary
                                                                                                                                2
                                                                       confirmation notices and/or ID cards
                                                                   Inadequate or insufficient documentation                     1
   Subtotal                                                                                                                    51
                       2
Benefit integrity audits                                                                Inappropriate billing                  21

                                                                Inappropriate transfer, storage, disposal, or
                                                                                                                                8
                                                                                         processing of drugs

                                                                          Inappropriate dispensing of drugs                     6

                                                                Inappropriate technician-to-pharmacist ratio                    2

                                                       Owner indicted for Medicaid fraud and sponsor not
                                                                                                                                1
                                                                                                 notified

   Subtotal                                                                                                                    38

Bid audits                                                   Adjustment, calculation, or categorization error                  45

                                                                   Inadequate or insufficient documentation                    24

                                                        Inconsistent, missing, or questionable information                     22

                                                          Bid not developed according to instructions from
                                                                                                                               15
                                                         Centers for Medicare & Medicaid Services (CMS)

                                                        Inconsistent development of rebates among plans                         1

   Subtotal                                                                                                                   107

                                                                                                            continued on next page




     OEI-03-09-00330       AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                             19
   A    P P       E    N    D I      X           ~     A



Table A-1: Categories of Problems Identified Through Sampled Audits,
2006–2009 (Continued)

                                                                                                                          Number of
 Audit Type                                                                                        Problem Category
                                                                                                                           Problems

 Long-term-care pharmacy contract audits                                                            Deficient contracts          9
     Subtotal                                                                                                                    9

 Pharmacy access audits                                                                             Deficient contracts          2
     Subtotal                                                                                                                    2

 Program audits                                                  Deficient enrollment and/or disenrollment process             189

                                                               Deficient coverage determination, grievance, and/or
                                                                                                                               169
                                                                                                  appeals process

                                                                                          Deficient marketing process           21

                                                                               Deficient formulary transition process           17

                                                                 Deficient notices and/or materials for beneficiaries           13

                                                               Deficient process for true out-of-pocket costs and/or
                                                                                                                                12
                                                                                            coordination of benefits

                                                                                  Deficient provider communications             11

                                                                                    Deficient policies and procedures           10

                                                                    Deficient contracts with first-tier or downstream
                                                                                                                                 6
                                                                                                               entities

                                                                                            Deficient compliance plan            4

                                                                Deficient claim processing and/or payment system                 4

                                                                        Deficient pharmacy access for beneficiaries              3

                                                             Deficient documentation of reviews by Pharmacy and
                                                                                                                                 2
                                                                                         Therapeutics Committee

                                                                            Deficient drug utilization review process            2

                                                               Deficient in providing CMS information on its quality
                                                                                                                                 1
                                                                   assurance program to reduce medication errors

                                                                        Deficient process for employer group plans'
                                                                                                                                 1
                                                                                      low-income premium subsidy

                                                              Deficient process for revising its Medication Therapy
                                                                                                                                 1
                                                                                             Management Program

     Subtotal                                                                                                                  466

     Total                                                                                                                     673
Source: Office of Inspector General (OIG) analysis of CMS’s responses to 2010 OIG data request.
1
  Weekly Transaction Reply Reports contain information on changes in beneficiary enrollment information.
2
  Benefit integrity audits, conducted by sponsors, were audits of pharmacies in sponsors’ networks.




       OEI-03-09-00330             AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                         20
            A P P E N D I X                       ~         B



Table B-1: Categories of Corrective Action Taken To Address Problems Identified
Through Sampled Audits, 2006–2009

                                                                                                                     Number of
Audit Type                                                                       Corrective Action Category           Problems
                                                                                                                    Addressed1


Autoenrollment readiness audits                             Centers for Medicare & Medicaid Services (CMS)
                                                                                                                               16
                                                                            requested additional information

                                                                                              CMS monitoring                   10

                                                                   Sponsor submitted policies and procedures                    9

                                                                  CMS denied autoenrollees or reassignments                     7

                                                                               CMS conducted followup audit                     6

                                                       Sponsor submitted audit, compliance, performance, or
                                                                                                                                3
                                                                                       other reports to CMS

                                                                                           CMS warning letter                   2

                                                                   Sponsor established or revised policies and
                                                                                                                                2
                                                                                                  procedures

                                                                 Sponsor implemented policies and procedures                    2

                                                                                  Sponsor conducted training                    1

                                                        Sponsor submitted documentation of training to CMS                      1

                                                        Sponsor took corrective action under a different audit                  1

Benefit integrity audits2                                                  Pharmacy terminated from network                    22
                                                    Pharmacy referred to Office of Inspector General (OIG)                     19

                                                                       Pharmacy put on corrective action plan                   4
                                                             Pharmacy under investigation by Medicare Drug
                                                                                                                                2
                                                                                        Integrity Contractor
                                                                    Sponsor pursued internal corrective action                  2

                                                                            Pharmacy notified of overpayment                    1

                                                             Rather than using a corrective action process for
Bid audits                                             problems identified by bid audits, CMS determined that                 943
                                                           problems found in bid audits were resolved when it
                                                         reviewed the sponsor’s bid for the next contract year
Long-term-care pharmacy contract audits                           Sponsor submitted revised contracts to CMS                    7

                                                                   Sponsor established or revised policies and
                                                                                                                                3
                                                                                                  procedures

Pharmacy access audits                                                 CMS requested a corrective action plan                   2
                                                                                                            continued on next page




       OEI-03-09-00330      AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                             21
A    P P       E    N    D I      X        ~          B




Table B-1: Categories of Corrective Action Taken To Address Problems Identified
Through Sampled Audits, 2006–2009 (Continued)

                                                                                                                                        Number of
 Audit Type1                                                                                 Corrective Action Category                  Problems
                                                                                                                                       Addressed1

 Program audits                                                             Sponsor established or revised policies and
                                                                                                                                                 356
                                                                                                           procedures

                                                                                              Sponsor conducted training                         334

                                                                 Sponsor submitted documentation of training to CMS                              332

                                                                         Sponsor implemented policies and procedures                             162

                                                                   Sponsor submitted policies and procedures to CMS                              102

                                                                         Sponsor established monitoring and oversight
                                                                                                                                                  75
                                                                                                          procedures

                                                                   Sponsor submitted audit, compliance, performance,
                                                                                                                                                  69
                                                                                              or other reports to CMS

                                                                        Sponsor implemented monitoring and oversight
                                                                                                                                                  52
                                                                                                         procedures

                                                                                       Sponsor conducted internal audits                          49

                                                                  Sponsor submitted template of beneficiary notices to
                                                                                                                                                  44
                                                                                                                 CMS

                                                                                  Sponsor implemented internal controls                           43

                                                                      Sponsor submitted analysis of deficiency to CMS                             42

                                                                       Sponsor submitted name of staff responsible for
                                                                                                                                                  24
                                                                               implementing corrective action to CMS

                                                                       Sponsor revised contracts, contract addenda, or
                                                                                                                                                  13
                                                                                                           agreements

                                                                                           CMS conducted followup audit                           12

                                                                               Sponsor submitted accurate data to CMS                             11

                                                                                     Sponsor developed internal controls                               6

                                                                   Sponsor submitted target compliance dates to CMS                                    5
                                                                       Sponsor developed, updated, or implemented a
                                                                                                                                                       3
                                                                                                     tracking system
                                                                      Sponsor developed provider education materials                                   2

                                                                                             Sponsor revised its Web site                              2
                                                                     Sponsor improved accountability for accuracy and
                                                                                                                                                       1
                                                                                        completeness of information
Source: OIG analysis of CMS’s responses to 2010 OIG data request.
1
  One problem may have been addressed through more than one corrective action. Therefore, the total number of problems addressed by a
corrective action may be greater than the number of problems in an audit type.
2
  Benefit integrity audits, conducted by sponsors, were audits of pharmacies in sponsors’ networks.
3
  The bid audits reviewed identified 107 problems. Of these, only 94 were associated with contracts that were renewed the next contract year. All of
these 94 problems were resolved.




         OEI-03-09-00330              AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                                     22
       A P PEN 0                          x                 c


 Agency Comments




                                                                                         Centers for Medicare & Medicaid Services


                                                                                         Administrator
                                                                                         Washington, DC 20201




           DATE:             OCT 2 72011
           TO:             Daniel R. Levinson
                           Inspector General
                                                        /S/
           FROM:           Donald M. Berwick, M.D.
                           Administrator

           SUBJECT:        Office of Inspector General (OIG) Draft Report: "Audits of Medicare Prescription
                           Drug Plan Sponsors," OEI-03-09-00330

           Thank you for the opportunity to review and comment on the Office ofinspector General's
           (OIG's) draft report, "Audits of Medicare Prescription Drug Plan Sponsors." The Centers for
           Medicare & Medicaid Services (CMS) appreciates the time and resources the OIG has invested
           in examining CMS' use of audits in overseeing Prescription Drug Plan (PDP) sponsors.

           As part of this study, the OIG identified seven types of audits that CMS used for auditing stand­
           along PDP's during the first 4 years of the program, 2006 - 2009, and provided an overview of
           CMS' use ofthese types of audits to oversee PDP sponsors. These seven audit types were:
           autoenrollment readiness audits, benefit integrity audits, bid audits, compliance plan audits, long­
           term-care pharmacy audits, pharmacy access audits, and program audits. As the report notes,
           CMS is not required by law to conduct any of these types of audits, but developed them to
           identify problems and correct deficiencies within the Part D program.

           The OIG identified three findings as a result of their study. First, the OIG found that some PDP
           sponsor contracts were never audited between 2006 and 2009; second, that seventy-nine percent
           of the 245 PDP audits completed between 2006 and 2009 identified problems; and third, that
           CMS did not have evidence to show that all corrective actions were implemented for two audit
           types.

            The OIG made the following recommendations:

            OIG Recommendation 1:
            Establish a comprehensive Part D auditing strategy that ensures that each plan sponsor will be
            audited in some way within a certain timeframe .. The strategy should include parameters for
            conducting each audit type. The strategy should also ensure coordination among the CMS
            offices responsible for auditing activities so that no contract goes 4 successive years without an
            audit of some type.




OEI-03-09-00330         AUDITS OF MEDICARE PRESCRIPTION DRUG PLAN SPONSORS                                                          23
A   P P     E   N     D I    X            ~     C




    OEI-03-09-00330         AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS   24
A   P P     E   N     D I    X            ~     C




    OEI-03-09-00330         AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS   25
   R C
    A E C
        K O
          N O
            M W
              M EL E
                   N D G
                       A TM IE ON NT SS

                  This report was prepared under the direction of Robert A. Vito,
                  Regional Inspector General for Evaluation and Inspections in the
                  Philadelphia regional office, and Linda M. Ragone, Deputy Regional
                  Inspector General.
                  Isabelle Buonocore served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Nancy J. Molyneaux; other central office staff who contributed include
                  Kevin Farber, Robert L. Gibbons, and Rita M. Wurm.




OEI-03-09-00330   AUDITS   OF   MEDICARE PRESCRIPTION DRUG PLAN SPONSORS               26
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
